<html>
<title> - PORT SECURITY: PROTECTING FLORIDA'S PORTS FROM THE THREAT OF DRUG TRAFFICKING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
   PORT SECURITY: PROTECTING FLORIDA'S PORTS FROM THE THREAT OF DRUG 
                              TRAFFICKING

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 31, 2000

                               __________

                           Serial No. 106-278

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______
                    U.S. GOVERNMENT PRINTING OFFICE
75-061 PDF                  WASHINGTON : 2001
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Charley Diaz, Congressional Fellow
                           Ryan McKee, Clerk
                    Sarah Despres, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 31, 2000.................................     1
Statement of:
    McDonough, James R., Director, Florida Office of Drug 
      Control; Paul DeMariano, Port Director, Port Everglades, 
      FL; Charles Towsley, Seaport Director, Dante B. Fascell 
      Port of Miami-Dade, FL; Robert McNamara, Director of Field 
      Operations, U.S. Customs Service; and Arthur Coffey, 
      president, International Longshoremen's Association........    14
Letters, statements, etc., submitted for the record by:
    DeMariano, Paul, Port Director, Port Everglades, FL, prepared 
      statement of...............................................    31
    McDonough, James R., Director, Florida Office of Drug 
      Control, prepared statement of.............................    17
    McNamara, Robert, Director of Field Operations, U.S. Customs 
      Service, prepared statement of.............................    40
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Towsley, Charles, Seaport Director, Dante B. Fascell Port of 
      Miami-Dade, FL, prepared statement of......................    35


   PORT SECURITY: PROTECTING FLORIDA'S PORTS FROM THE THREAT OF DRUG 
                              TRAFFICKING

                              ----------                              


                       TUESDAY, OCTOBER 31, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                               Port Everglades, FL.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
the Chambers, Administration Building, 1850 Eller Drive, Port 
Everglades, FL, Hon. John L. Mica (chairman of the 
subcommittee) presiding.
    Present: Representative Mica.
    Also present: Representative Shaw.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Charley Diaz, congressional fellow; Ryan McKee, clerk; 
and Sarah Despres, minority counsel.
    Mr. Mica. Good morning. I'd like to call this hearing of 
the Criminal Justice, Drug Policy, and Human Resources 
Subcommittee to order.
    I'm pleased this morning to be in Port Everglades and 
Broward County. I also welcome our colleague from the Ways and 
Means Committee, Mr. Shaw. Actually, this is your area, and 
we're so pleased to be here and thank you for being here today, 
too. I know we've had trouble getting out of Washington, also, 
a disruptive schedule. But I did want to proceed with a hearing 
this morning. We've delayed holding this because of some of our 
requests from Members, but again, thank you for hosting us 
today here in your city.
    I'm kind of glad we don't have too many Members here, most 
of them stuck in Washington, because this isn't exactly a 
Chamber of Commerce Fort Lauderdale day.
    Mr. Shaw. We do better.
    Mr. Mica. The sun isn't shining this morning, but I'm sure 
it will be back.
    I'm pleased to be here. We're here on a very serious issue, 
and that's port security, protecting Florida's ports from the 
threat of drug trafficking. The order of business today will be 
I'll first open with a statement. I'll yield then to Mr. Shaw, 
if he has a statement. And with agreement from the minority, 
without objection, we're going to leave the record open for an 
additional week, for 3 weeks, for members to submit statements 
to the official record, because we do have people who have been 
held in Washington on this occasion. So without objection, so 
ordered, the record will be open for a period of 3 weeks.
    Also, I notify the witnesses today that questions will also 
be submitted to you from the subcommittee and also committee 
members who are not with us. So we would like you to respond. 
And those, without objection, will also be made part of the 
record of this hearing.
    As chairman of the House Subcommittee on Criminal Justice, 
Drug Policy, and Human Resources, I've had the opportunity to 
travel across this country examining the problem of illegal--
our illegal drug epidemic. Today we'll take a closer look at 
the growing crisis here at home--namely, the smuggling of 
illegal narcotics through Florida seaports. This congressional 
field hearing will focus specifically on criminal activity in 
and around the ports of Port Everglade and Miami, FL. These two 
ports account for a large percentage of the vast quantities of 
drugs being smuggled into the United States each year.
    Two years ago, with the start of the 106th Congress, I took 
over this subcommittee from my good friend, Dennis Hastert, who 
is now the Speaker of the House. The very first place that I 
visited as chairman and held a field hearing was in my own 
district in central Florida near Orlando, to examine the 
growing heroin epidemic in central Florida. Today, as we 
approach the close, and we hope it's the close, of the 106th 
Congress, we're back in Florida, and this time in south 
Florida, to examine the threat posed by cocaine and other 
drugs.
    U.S. seaports handle 95 percent of our Nation's trade. As a 
major U.S. import/export trade destination, with some of the 
largest cargo and passenger ports in the world, Florida is a 
natural conduit for the free flow of goods, both legally and 
illegally. We know from history that Florida, with its 1,350 
miles of largely uninhabited coastline, has been a haven for 
smugglers. In the modern era, with its close proximity to drug-
producing countries like Colombia, Florida is once again the 
target of illegal smuggling. However, this time it's with a 
product of illegal narcotics.
    Florida accounted for 65 percent of the total cocaine 
seizures in the United States in 1998. That represents 150 to 
200 metric tons of cocaine. And we may even hear testimony 
today that says that's even larger.
    Over the past 2 years, as subcommittee chairman, I've 
conducted dozens of more than 40 hearings on the topics of 
illegal narcotics. Many of those were field hearings like this, 
because south Florida isn't the sole haven of the problem. 
During the past year, I've presided over field hearings in 
Honolulu. While it's a nice location, I might say I flew in 
there on an evening, Mr. Shaw, a Saturday evening, spent the 
day in a State prison and drug treatment programs and conducted 
the hearing, and I flew back to Washington. I did that hearing 
at the request of our ranking member, Mrs. Mink, who also has 
some of the same problems at her port facilities.
    We also conducted hearings in Sacramento, San Diego, other 
large port areas, New Orleans, Louisiana. Additionally, Dallas, 
central Florida and even in the heart of America, in Sioux 
City, IA. So we have covered our Nation trying to look at the 
specific aspects of the problems.
    Today we come to Port Everglades because south Florida 
continues to be plagued by illegal narcotics, much of them 
arriving through this port facility and through our coastline. 
Just last week, the U.S. Customs seized nearly $11 million 
worth of cocaine and marijuana on the Miami River. In May, 
Customs officials seized $6.7 million worth of cocaine aboard a 
container ship docked here at Port Everglades. In April, 
Federal agents arrested six dock workers in Port Everglades for 
illegally smuggling thousands of pounds of cocaine and 
marijuana.
    Concerned with the growing security risk that we face, the 
Governor of the State commissioned a study to assess Florida's 
seaport security. This study, which was just released last 
month, made specific recommendations on how to improve seaport 
securities across the State of Florida and also specifically 
here in south Florida. We look forward to hearing from Jim 
McDonough, who is from our Office of State Drug Control Policy 
and Florida's drug czar, about the study's findings, 
recommendations, and hopefully, implementation.
    Illegal drug smuggling is a topic that matters to everyday 
Americans. These days you'd be hard-pressed to find an 
individual or family whose life has not been affected by 
illegal narcotics in some way. Drug abuse kills directly--the 
last statics we had were 16,926, exceeding for the first time 
in our records the number of homicides. So drug-related deaths 
now exceed homicides nationally. According to Barry McCaffrey, 
our national drug czar, and he took into account all the direct 
and indirect, it now totals an astonishing 52,000 Americans die 
per year, equal to any national security or war threat we've 
ever faced. The scope of illegal drugs trade is almost 
incomprehensible, with an estimated $400 billion a year, an 
equivalent of 8 percent of the world's total international 
trade. And the estimated cost to U.S. society--this statement 
they prepared for me says $100 billion. And it can be as high 
as a quarter of a trillion if we include everything.
    But not all is lost. We continue to make slow but steady 
progress despite the current administration's inattention, 
mismanagement, and I believe at the beginning of this 
administration, a lack of focused policy. We now have 31 
federally designated High Intensity Drug Trafficking Areas 
[HIDTAs]. The HIDTA here in south Florida was, of course, one 
of the original High Intensity Drug Trafficking Area 
designations. These entities represent a Federal effort to 
enhance cooperation, information, and information-sharing among 
Federal, State, and local law enforcement officials. However, 
as we'll hear later today, more must be done with regard to 
HIDTA's role in seaport security.
    The National Youth Anti-Drug Media Campaign is now in its 
third year and hopefully is having some impact--beginning to 
have an impact on our kids' attitudes about illegal drugs. Our 
subcommittee has oversight responsibility for the Office of 
National Drug Control Policy. And we are, in fact, a 
congressional watchdog over the HIDTA program in this anti-drug 
media campaign I spoke of.
    In July, the House of Representatives passed a $1.3 billion 
Colombia aid package that we hope will get to the supply of 
cocaine and heroin that we're seeing coming in through this 
area. Again, the subcommittee has actively and aggressively 
sought to ensure that this administration is true to its word 
and gets promised aid and assistance to Colombia, which, again, 
is a source of so much of the hard drugs that we see coming 
through here.
    The illegal drug trade is clearly global. So this year I 
hosted, along with the Speaker and Mr. Gelman and others, an 
international drug control summit in Washington, which brought 
together representatives of the various donor countries. As a 
matter of fact, we're going to meet in Bolivia for the first 
time I believe in February with some of the producing countries 
and leaders in South America. So we continue to work with those 
countries, also with the United Nation's Office of Drug Control 
Policy. Pino Arlacchi is doing an outstanding job to combat the 
problem of curtailing drugs at their source.
    Illegal drug smuggling is a problem that concerns all of us 
and one which will require a great deal of work on the part of 
many good people if we're to overcome that problem. And that's 
why we're here today.
    I want to thank in advance our witnesses for being with us 
today and providing the subcommittee with their testimony. I 
appreciate that these witnesses are willing to come forward and 
shed light on problems and resources and the constraints that 
they face to effectively combat drug smuggling in Florida's 
seaports. I want south Florida to know that I, along with many 
of my colleagues, are committed to this fight, people like my 
good colleague Clay Shaw, who has joined us today. And I thank 
him for joining the subcommittee. We want to hear from these 
local and State and Federal officials about how we can do our 
job better, provide the resources and tools and, if necessary, 
legislation to make positive changes and take appropriate 
actions.
    With those comments, I'm pleased to yield at this time to 
the gentleman from this district, the gentleman from Florida, 
Mr. Shaw.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T5061.001
    
    [GRAPHIC] [TIFF OMITTED] T5061.002
    
    [GRAPHIC] [TIFF OMITTED] T5061.003
    
    [GRAPHIC] [TIFF OMITTED] T5061.004
    
    [GRAPHIC] [TIFF OMITTED] T5061.005
    
    [GRAPHIC] [TIFF OMITTED] T5061.006
    
    [GRAPHIC] [TIFF OMITTED] T5061.007
    
    Mr. Shaw. John, thank you very much for holding this 
hearing here. I do know that our time is very stressful at this 
time trying to finish up our business in Washington. And 
looking at the news, it looks like it might even flow over till 
after the election. Of course, our objective was to get out 
about 2 or 3 weeks ago. We've missed that opportunity. So this 
session seems to be going on and on.
    We are indeed blessed here in the 22nd Congressional 
District with three wonderful seaports--the port of Palm Beach, 
Port Everglades, which I'm tremendously proud of, as well as 
the port of Miami. When you think of the tremendous volume of 
trade that goes on in these three ports, particularly Port 
Everglades and the port of Miami, you know that it is also seen 
as ports of opportunity, because of our geographical location. 
This hasn't only been in the question of drugs.
    Just a few yards from where we're seated here, Mr. 
Chairman, there is a waterway that is appropriately named 
Whiskey Creek. It got its name during Prohibition. I think 
anyone here could figure out exactly why it was named Whiskey 
Creek during Prohibition. That, of course, was because of the 
smuggling that went on.
    I guess it's been about almost 2 years ago that we started 
looking at--particularly here at Port Everglades we were 
looking and we found some astounding information. One, we 
started looking at the criminal background of so many of the 
people who were on the front line on the docks, working the 
docks. We saw that they were parking their vehicles almost 
right alongside the ships they were unloading. We found that an 
extraordinary number of these dockworkers had vans. So you 
start putting these things together and you begin to understand 
what is going on here.
    Here in Port Everglades, the way the port is designed--I 
once heard that the best way to decide where to put the 
sidewalks around the school is that you let the school open 
without the sidewalk and see what the traffic pattern is and 
then put the sidewalk where the children would walk. I think 
that's the way the roadway was put here in Port Everglades; 
wherever the dirt roads led, that's where the paved roads were. 
As a result, we have a tremendously convenient port, but a port 
that has very, very bad security as far as ingress and egress.
    We're working on it. We're doing something about it. The 
Broward County Commission is concerned about it. We've gotten 
some graphs that will put in some gates and do some things of 
altering the roads themselves within the port. Also, the County 
Commission with our Port Commissioner, Mr. DeMariano, who has 
actually done, I think, an outstanding job here in Port 
Everglades, we're doing and making a lot of progress with 
regard to port security. But we keep working on it. And we know 
we can continue to do better.
    I think that we've closed down a lot and done away with a 
lot of the problems we had, but I think there's still some 
problems out there. That should be the focus of this hearing, 
for which I'm very appreciative that you're taking your time to 
come down and hold this hearing.
    I look forward to the witnesses, most of whom I'm 
personally acquainted with and have worked with in the past. 
It's an outstanding panel of witnesses, and I look forward to 
their testimony. Thank you, Mr. Chairman.
    Mr. Mica. Thank the gentleman, and again, I appreciate your 
working with our subcommittee to make certain that we have the 
resources and the attention to the problem here in south 
Florida and also across the country.
    At this time, I'd like to introduce our panel today. We 
have a witness list that consists of the following individuals: 
First, we're pleased that Jim McDonough, who is the Director of 
the Florida Drug Control Policy Office, which is part of the 
executive office of the Governor for the State of Florida, is 
with us. We have Paul DeMariano, who is the Port Director of 
Port Everglades here. We have Chuck Towsley, who is the Port 
Director of the Miami port. We have Bob McNamara, who is Field 
Operations Director for south Florida, the U.S. Customs Office. 
We have Art Coffey, who is vice president for Florida's 
International Longshoremen's Association [ILA]. I'd like to 
welcome the individuals who are on our panel today.
    First of all, this is an investigation and oversight 
subcommittee of Congress. We're part of the Government Reform 
Committee. In that regard, we do swear in all of our witnesses, 
which I'll do in just a moment.
    Also, if you have any lengthy statements or documentation 
that you'd like to be made an official part of this record, if 
you'd submit them through the chair, and upon unanimous 
request, they will be made part of the official record, again, 
of these proceedings.
    We are not going to run the clock this morning, since we 
have the one panel and we don't have other Members right now to 
ask questions. As I said, you will have some submitted to you 
for the record. We will ask your cooperation in responding to 
those.
    At this time, if you'll please stand to be sworn.
    [Witnesses sworn.]
    Mr. Mica. Witnesses answered in the affirmative. We'll let 
the record reflect that.
    Mr. Shaw. Mr. Chairman, before the testimony begins, if I 
could just add one comment.
    Mr. Mica. Mr. Shaw, you're recognized.
    Mr. Shaw. And that is recognize that both these Directors, 
Mr. Towsley as well as Paul DeMariano, have been very 
aggressive in putting in security, x-ray equipment, state-of-
the-art equipment. We worked very hard in Congress to get these 
moneys appropriated. And I think that both these gentlemen 
certainly deserve much credit for the good work that they've 
done in order to increase security at Port of Miami, as well as 
at Port Everglades.
    Mr. Mica. Thank you, Mr. Shaw.
    At this time, I'm pleased to recognize as our first 
witness, Mr. Jim McDonough, who, again, is the Director of 
Florida's Office of Drug Control Policy. Welcome, sir, and 
you're recognized.

 STATEMENTS OF JAMES R. McDONOUGH, DIRECTOR, FLORIDA OFFICE OF 
 DRUG CONTROL; PAUL DeMARIANO, PORT DIRECTOR, PORT EVERGLADES, 
FL; CHARLES TOWSLEY, SEAPORT DIRECTOR, DANTE B. FASCELL PORT OF 
MIAMI-DADE, FL; ROBERT McNAMARA, DIRECTOR OF FIELD OPERATIONS, 
      U.S. CUSTOMS SERVICE; AND ARTHUR COFFEY, PRESIDENT, 
            INTERNATIONAL LONGSHOREMEN'S ASSOCIATION

    Mr. McDonough. Good morning. Thank you very much for the 
honor of appearing before the subcommittee.
    Mr. Mica. Are we picking him up adequately?
    Mr. McDonough. Hear me all right?
    Mr. Mica. That's better. Thank you.
    Mr. McDonough. Mr. Chair, if I could, I would like to 
submit my statement for the record.
    Mr. Mica. Without objection, your entire prepared statement 
will be made part of the record.
    Please proceed.
    Mr. McDonough. Thank you, sir. I would like to give a short 
statement just to overview the state of our efforts to counter 
drug problems here in the State of Florida. Let me say at the 
outset how much I appreciate the support that has come from you 
personally, as well as you, Mr. Shaw, from the subcommittee as 
a whole in supporting us.
    As you know, we do have a problem here in Florida. We have 
a problem on the demand side. We have a problem on the supply 
side. And we have, with your leadership and assistance, taken 
steps to counter both. I'm happy to say we've seen some 
dramatic progress on the demand side. We'll continue to work 
that. We're a long way from bringing it down to the level that 
we want to bring it down to, but we have seen some progress. 
And I can go into that, if you'd like.
    On the supply side, we have also taken a number of steps, 
one of which is our efforts at the seaports. Of course, I will 
focus for the most part on the seaports. There are some 
parallel things that we're doing that should reenforce 
virtually every effort that we take here.
    Our goal in Florida, simply put, is to bring down the 
supply of drugs coming into our State and moving then some for 
local consumption, some for transport elsewhere, down by one-
third. To do that we had to establish a base line of where we 
were. So some time ago in late summer, early fall of 1999, we 
undertook, with the cooperation of Federal agencies, to 
establish a base line on the amount of supplies coming in, a 
macro view of where they were coming.
    Simultaneously, the Florida legislature in the spring of 
1999 directed that my office would undertake a study 
specifically of the seaports. We executed the beginning of that 
study to contract for that study in December 1999. Therefore, 
occurring at the same time along two lines merging was an 
intelligence assessment of where we were and a specific study 
of access through our ports.
    On the intelligence front first, we concluded through 
interagency assessment that we could, in fact, affix the amount 
of drugs coming into Florida as between 150 to 200 metric tons 
of cocaine every year, as mentioned in your statement, sir. We 
also did our best to affix amounts for other drugs. Heroin, we 
affixed at three metric tons. We were unable to come up with an 
accurate assessment on the marijuana coming in or the club 
drugs and other drugs, but cocaine certainly was stark at 150 
to 200 metric tons.
    At that time, we assessed that what is intercepted on the 
way to our borders and at our borders something like 50 percent 
roughly of the take throughout the entire Nation. And I have 
taken a close look. I tend to stay up with the intelligence 
estimates, which most recently were putting the targeting for 
the United States for cocaine as 512 tons, of which we are 
picking off about 112 at the borders. Bottom line on that one, 
Florida is taking an appreciable share of the amount of cocaine 
entering into the country.
    As we looked further, as we merged this with the security 
studies and took a look at our own information sources, local 
sources from law enforcement, State, and Federal, two things 
fell out of that. No. 1, that the majority of the drugs that 
I've mentioned were coming into our seaports, not all of them, 
but perhaps as high as 70 percent or more were coming in from 
seaports. That we were being fairly successful in picking off 
some of that, but certainly not to the levels that would deter 
the smugglers from bringing it in here. It varies year by year. 
Sometimes we're able to seize as much as 25, 30 tons, sometimes 
less. It goes up and down.
    What did fall out of both the seaport assessment and 
intelligence study is that we did not have good systemic 
approaches to interdicting those drugs once they entered into 
our sovereign waters and certainly as they went beyond that to 
the transportation nets. Having recognized that problem and 
seeing how the study was going, we worked very closely with the 
Florida Ports Council with those elements of the council that 
deal with the security at the ports and certainly with the 
gentlemen at this table as we have tried to affix the extent of 
the problem we can do about it. I will go further into that 
issue bringing me out on questions.
    Let me just tell you that we recognize clearly that we have 
a problem and we determined just as clearly that we would do 
something about this as a State and as a partnership with local 
leadership matching out the ports and law enforcement to do 
something something about it. We also looked to the Federal 
Government's support on this.
    In the summer of this year, the Governor of this State, Jeb 
Bush, and myself went to meet with General McCaffrey to engage 
his assistance on partnering at our ports to better secure 
them. As you well know, at the same time we were taking our 
study down here, a commission at the Federal level was taking a 
look across the Nation at our ports. We published our findings 
in a report this September of this year.
    Although, the two reports were done separately, in 
September, the Grand Commission Report, as it's referred to, 
came out and the findings were very close in terms of access 
control was something that needed to be addressed. We needed to 
take a look at who was working at the ports. We need to take a 
look at the things that either allow fast movement of illegal 
drugs or would deter fast movement of illegal drugs, things 
such as where you park your vehicle, what sort of processing 
the cargo goes through as it moves out, access roads, 
identification checks and so on.
    The partnership that we appealed for we hope will be 
honored. I'm very encouraged by signs that I've seen. In 
essence, it amounts to an intelligence effort that better 
identifies with a great deal of accuracy where the drugs are 
coming in or where they're likely to come in, the inspections 
systems that deal with the humans in the net, the incorporation 
of the intelligence picture and the technology available on the 
ports to better screen that which is coming in and then 
reinforcement through the entire transportation net. This boils 
down to things like what can the Feds do for us. It gets into 
some of the non-intrusive inspection technology coming in here.
    U.S. Customs has been very helpful there. We're 
anticipating over the next 5 years some $30 million worth of 
equipment there. It also has to deal with the intelligence 
efforts, the HIDTA efforts that you mentioned a short while 
ago. One of the things we had specifically asked for in 
partnership is the formation of a third HIDTA in Florida in the 
Jacksonville area, which we do feel is a vulnerable port, then 
an interconnection of those HIDTA's. We would then have three 
in Florida with the Jacksonville area, the Orlando area and the 
Miami area.
    In connection with those three with Puerto Rico, which 
marks an entry into the domestic sovereign boundaries of the 
United States, so that when they were transshipped further from 
Puerto Rico into the United States or into our ports, we would 
have a very clear intelligence picture of what's coming in. We 
are looking forward to progress on all of those.
    In the meantime, Florida has moved forward. With the 
findings on the study, we plan, in fact, to implement a set of 
minimum standards. We have costed it out to the State of 
Florida at approximately $28 to $29 million that we will spend 
in the next 24 months. That will be again in partnership with 
the ports.
    And we have put in place throughout the State other law 
enforcement agencies and efforts that will not only interdict 
the drugs at the port, but those that do get through that we'll 
have other chances to catch the drugs as they move in Florida 
and further to catch the moneys as it moves back out, ie., we 
are following, in fact, the leadership that you have shown us 
on this and the strategy that you have helped to develop at the 
national level to better cut the drug supply. If we do all 
that, our anticipation is over the next 5 years we can, in 
fact, reach our goal of cutting the supply of drugs in Florida 
by 33 percent.
    On that note, I'd like to close.
    [The prepared statement of Mr. McDonough follows:]
    [GRAPHIC] [TIFF OMITTED] T5061.008
    
    [GRAPHIC] [TIFF OMITTED] T5061.009
    
    [GRAPHIC] [TIFF OMITTED] T5061.010
    
    [GRAPHIC] [TIFF OMITTED] T5061.011
    
    [GRAPHIC] [TIFF OMITTED] T5061.012
    
    [GRAPHIC] [TIFF OMITTED] T5061.013
    
    [GRAPHIC] [TIFF OMITTED] T5061.014
    
    [GRAPHIC] [TIFF OMITTED] T5061.015
    
    [GRAPHIC] [TIFF OMITTED] T5061.016
    
    [GRAPHIC] [TIFF OMITTED] T5061.017
    
    [GRAPHIC] [TIFF OMITTED] T5061.018
    
    [GRAPHIC] [TIFF OMITTED] T5061.019
    
    Mr. Mica. Thank you. And we'll withhold questions until 
we've heard from all of the witnesses.
    I'll recognize next Paul DeMariano, Port Director of Port 
Everglades.
    I'm lucky I can say anything today. I think we're all 
getting a little weary from flying back and forth from 
Washington and meeting late into the night.
    Thank you. You're recognized.
    Mr. DeMariano. No problem at all, Congressman. I've been 
through a lot of that with my name.
    Congressman Mica and Congressman Shaw, thank you for 
contacting us and inviting our testimony at this important 
hearing on port security as a function of the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources.
    I would also like to submit my prepared remarks, but I will 
make an introductory remark, if I may.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Please proceed.
    Mr. DeMariano. Thank you.
    Not long ago, I attended a fly in at the invitation of 
Congressman Shaw, including 2 days of very interesting meetings 
in Washington hosted by the Congressman, which included input 
and interviews with various key legislative leaders. At one 
session, both Senator Graham and Congressman Shaw spoke at 
length and with great sincerity to all of us about the high 
priority that has been given to drug interdiction and a greater 
emphasis on illegal traffic in contraband, as well as the need 
for much sharper security within the operating seaports of 
Florida.
    Most, if not all, professional Port Directors which I know, 
including my friend and colleague Chuck Towsley, who's with us 
here today, as well as all Florida Port Directors, without 
question, have embraced and are dedicated to the concept that 
we must acknowledge the popularity of Florida as a gateway, as 
I think you said, Congressman, not just for legitimate cargo 
and crews unfortunately, but for the movement of drugs which we 
all know has a severely damaging effect on every aspect of 
American life.
    The Florida Seaport Transportation and Economic Development 
[FSTED] Council has impaneled a security committee, which is 
chaired by our director of public safety here at Port 
Everglades, Mr. Jeff Brown, to address the issues of seaport 
crime. The efforts of the Florida Ports Council and the FSTED 
Security Committee are supporting the mission of Jim McDonough. 
We have, of course, heard from Jim. And we continue to hear 
from our Governor Bush. And we are well aware of your 
congressional emphasis on port security.
    I can tell you that at Port Everglades, we are singularly 
dedicated to the development of this booming seaport within our 
very, very vibrant Florida economy and we intend to go about 
this work with port security right on the front burner. We 
intend to partner with Jim McDonough in the weeks and months 
ahead, in fact, to pursue opportunities within the 
Transportation Outreach Program being offered by the Florida 
Department of Transportation as a specific means of providing 
security improvements throughout the State. I trust that what 
Jim has said and my comments on this, you will be convinced 
that we are absolutely deadly serious about the matter of 
security.
    At Port Everglades, in order to provide effective security 
to counter drug smuggling and criminal issues generally 
associated with seaports, we've developed a number of 
mechanisms to ensure the best security practices are utilized. 
We believe that providing a crime-free work environment to our 
clients is of the utmost importance. Our commitment to this 
belief is evidenced in the testimony that I've prepared.
    With that, I'll conclude, Congressman. We do have prepared 
remarks, and I'll be glad to take questions.
    [The prepared statement of Mr. DeMariano follows:]
    [GRAPHIC] [TIFF OMITTED] T5061.020
    
    [GRAPHIC] [TIFF OMITTED] T5061.021
    
    Mr. Mica. Thank you.
    I'll recognize Chuck Towsley, Port Director for the Miami 
port.
    Mr. Towsley. Good morning, Congressman Mica, Congressman 
Shaw. It's a pleasure to be here and address you today as to 
this most important matter before us.
    As you know, I am director of the Dante B. Fascell Port of 
Miami-Dade. The port of Miami is the largest container port in 
Florida and in the top 10 in the United States. And certainly, 
as a result, we have security issues that you are tasked with 
finding solutions or helping us find solutions. We are here to 
help you do that.
    We have more than 40 shipping lines calling on 132 
countries and 362 ports around the world. Of these, 26 carriers 
serve 33 countries and 101 ports in Latin America and the 
Caribbean alone. So you can appreciate the magnitude in volumes 
and issues that flow through the Port as relates to security.
    In 1999, the volume of cargo moving through the Port was 
almost 7 million tons. It is estimated the port of Miami's 
impact on our community is $8.7 billion and some 45,000 jobs. 
As you can see, we are a major player in the maritime industry.
    Thus, the administration at the Dante B. Fascell Port of 
Miami-Dade continues working to enhance our security 
operations. In 1998, administrators of the port of Miami 
identified areas that could be tightened. As a result of those 
efforts, we've led to several improvements through amendments 
to the Port's security legislation, which is county ordinance 
Chapter 28A of the Miami-Dade Code.
    These amendments require that the Miami-Dade police 
department, on behalf of the seaport, conduct criminal 
background checks on all persons working in the secure areas of 
the seaport before they receive seaport identification badges. 
If they have had a felony within 10 years, they do not qualify 
for an ID.
    These amendments to Chapter 28A allow the port of Miami to 
work at a local level to make the port a catalyst in the port 
security field. Increased port security practices make 
traveling for the cruise passengers a safer experience and 
helps ensure that cargo reaches its destination safely while 
assisting and reducing smuggling.
    Drug and smuggling interdiction has and will continue to 
receive the highest priority at the port of Miami. The port of 
Miami continues to be proactive in addressing all issues 
pertaining to security. In addition to working at the local 
level to tighten security, the Port is also working closely 
with State of Florida officials to identify funding for other 
security enhancements such as high mast lighting, additional 
fencing, camera surveillance, inspection equipment and others. 
These enhancements that we have now are estimated to be an 
additional $8 million required to increase our security.
    While the port of Miami is making an investment in 
equipment, we're also investing in our security personnel. Each 
security officer has an additional orientation at the Port by 
our senior training coordinator and from law enforcement 
agencies involved in port operations. The training includes 
cruise and cargo procedures, tariff, safety operations, and how 
to report to HazMat and terrorism threats. I think it's 
important to note that the port of Miami spends some $4 million 
in our operating budget currently related to security, which 
represents more than 5 percent of our annual operating 
revenues.
    The port is cooperating with the security study with Mr. 
McDonough on the reports of the deep-water ports to ensure that 
each has a security master plan. We are also active members of 
the newly formed Port Security Committee comprised of U.S. 
Customs and U.S. Coast Guard and the Immigration and 
Naturalization Service. The port of Miami's security staff 
works hand-in-hand with these agencies to identify and address 
security issues at all levels.
    Enhanced security measures initially implemented at the 
port of Miami will include a state-of-the-art electronic gate 
system. We are in the process, as Congressman Shaw mentioned, 
of installing four gamma ray inspection units, which are 
scheduled to be under way, completed within a short period of 
time. We're in the construction and design of those units, 
currently awaiting their delivery.
    Our new gate system is linked to our new ID badge system. 
Everyone who works in the secured areas of the Port that has 
gone through the background check gets an ID. Within the ID is 
a microchip that allows us to then scan proximity scanner and 
all that individual's information is then available to the 
people at the gate to see if there's been cancellation of their 
ID; if there's an alert put on to follow them or any other 
pertinent information, including who their authorized to haul 
for with respect to the truck drivers.
    We're also going to be cross-referencing our permitting 
system with our ID system. That is so a trucking company that 
comes in, we have the stats and that the driver's all cross-
referenced so that we can be sure that there is no security 
violations being attempted through false IDs.
    As mentioned, the port, with our Stolen Automobile Recovery 
System gamma ray technology machines, we've designated to 
detect contraband vehicles and equipment inside containers 
illegally moving into the port. As you know, quite often, the 
vehicles and this other equipment moving out of the port also 
carries the money that then goes back into the drug trade. We 
think it's very important not just the specifics on the 
interdiction on the drugs, but also on the money-laundering 
aspect also.
    Finally, the port has a sophisticated system of 
surveillance cameras and plans are being developed to 
substantially enhance the port's security capabilities in this 
regard.
    The port of Miami has continued to work collectively with 
the U.S. Customs and U.S. Coast Guard, Immigration and 
Naturalization, U.S.D.A., Florida Department of Law 
Enforcement, Miami-Dade police and the other law enforcement 
agencies in our effort. I would like to say personally my 
policy at the port of Miami is a zero-tolerance policy for any 
criminal activity. And I can assure you that we will take the 
necessary actions whenever they are brought to my attention 
through the authorities.
    We have been working with Mr. McDonough in his efforts at 
the State level for his important work and we look forward to 
the implementation of his and your recommendations. Thank you.
    [The prepared statement of Mr. Towsley follows:]
    [GRAPHIC] [TIFF OMITTED] T5061.022
    
    [GRAPHIC] [TIFF OMITTED] T5061.023
    
    Mr. Mica. Thank you for your testimony.
    And we'll now turn to Bob McNamara, who is Director of 
Field Operations for south Florida for the U.S. Customs 
Service. You're recognized, sir.
    Mr. McNamara. Mr. Chairman, I would like to submit my 
statement for the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Please proceed, and can you pull the mic up a little bit 
closer. Thanks.
    Mr. McNamara. Mr. Chairman, Representative Shaw, thank you 
for this opportunity to testify on criminal activity at the 
seaports in south Florida.
    My name is Robert McNamara. I am the Director of field 
operations for south Florida. In my capacity as Director, I am 
responsible for oversight of the inspection and control of 
international passengers, conveyances and cargo arriving and 
departing through the seaports and airports in south Florida. I 
have oversight responsibility for Miami, Port Everglades, West 
Palm Beach, Fort Pierce, and Key West.
    Before I begin, let me express U.S. Customs' gratitude to 
Congressman Mica for holding this hearing and for 
Representative Clay Shaw's leadership in this area. In 
addition, I know Congressman Shaw partnered with Senator Bob 
Graham in his support and participation on the Presidential 
Commission on Crime and Security in U.S. Seaports and the 
success of its year-long study, in which U.S. Customs played a 
large role.
    Mr. Chairman, there is a great deal to be concerned about 
at our Nation's major seaports, including security lapses that 
jeopardize our fight against drug smuggling, exposure to 
internal conspiracies, trade fraud, cargo theft, stolen 
vehicles, and other serious crimes.
    The good news is that there is a partnership between the 
Federal and private sectors at many of our major seaports. In 
addition, coordination among law enforcement agencies is 
strong. Clearly, the basis for cooperation exists to improve 
conditions in our seaport environment. Our challenge now is to 
focus cooperation and provide the proper resources to make it 
effective.
    Booming activity at our Nation's seaports is yet another 
welcome sign to our prosperous times, but it also presents 
unique challenges to our agencies. We must process all of that 
added commerce with an eye toward protecting America from 
crime.
    Florida, with over 1,350 miles of coastline, 14 major 
seaports, and 8 major international airports, is a major 
gateway for legitimate international cargo, passengers, and 
conveyances and offers a complex environment in which to deal 
with the threat of crime. Balancing the facilitation of 
legitimate commerce with interdicting contraband and arresting 
those responsible for smuggling through Florida's ports is a 
considerable challenge.
    The fact is every ship, every additional container, 
presents added opportunities for drug smugglers. For example, 
the 12 seaports in the United States that the Federal 
commission surveyed accounted for 69 percent of all cocaine by 
weight seized from cargo shipments and vessels, over half of 
all marijuana, and 12 percent of all heroin. Clearly, there is 
a serious threat out there, and we must do a better job of 
addressing that threat.
    Drug smuggling is a prevalent crime in the port of Miami 
and Port Everglades. By pounds of cocaine seized from 1996 
through 1998, the port of Miami ranked No. 1 and Port 
Everglades ranked No. 2 in the Nation. During those years, 
63,662 pounds of cocaine were seized at the port of Miami and 
30,283 pounds at Port Everglades. Most of this cocaine was 
detected concealed in containerized cargo shipments and 
commercial vessels, including vessels on the Miami River.
    However, our seizure statistics vary from year to year. For 
example, in fiscal year 1999, 27,126 pounds of cocaine were 
seized in Miami and Port Everglades compared to 15,410 pounds 
in fiscal year 2000. For marijuana seizures, it is the 
opposite. In fiscal year 1999, for the port of Miami and Port 
Everglades, Customs seized 10,798 pounds compared to 34,041 
pounds for the two ports in fiscal year 2000.
    Two weeks ago, Customs found 1,235 pounds of cocaine and 
3,283 pounds of marijuana concealed within cargo containers, 
which had arrived at Port Everglades. Also, within the last 2 
weeks, Customs seized 375 pounds of cocaine and 5.5 pounds of 
heroin in cargo containers arriving at the Miami seaport.
    Many of the narcotic seizures at our ports indicate the 
involvement of internal conspirators. Two significant internal 
conspiracy examiner investigations recently conducted by 
Customs and DEA at Port Everglades subsequently resulted in 
arrest of 45 individuals, including 35 dockworkers and contract 
security personnel, on drug smuggling and related offenses.
    Customs applauds the port of Miami's positive steps toward 
securing its seaport. A significant weakness, however, is that 
dockworkers are permitted to park their personally owned 
vehicles at dockside or near vessels that are lading or 
unlading. As internal conspirators frequently use their 
personally owned vehicles to remove drug shipments from the 
port, this weakness is a serious challenge to the integrity of 
the security system.
    On the other hand, Port Everglades requires dockworkers to 
park their personally owned vehicles in a segregated, fenced 
area, away from the docks.
    Customs has also taken a proactive lead in implementing two 
pilot programs in the port of Miami and Port Everglades. The 
first project is an interdisciplinary tactical team of special 
agents and Customs inspectors designed to enhance the Customs 
presence at the port of Miami and Port Everglades. This 
uniformed tactical team conducts patrols in marked units, 
providing a highly visible and unpredictable Federal law 
enforcement presence. This unit also provides immediate 
response to criminal and civil violations of Federal laws 
occurring in the ports 24 hours per day.
    The second project is a crime data collection project at 
the port of Miami and Port Everglades. This project is designed 
to improve intelligence gathering and analysis of criminal 
entities and activities and to share that intelligence with 
other interested Federal and State and local agencies.
    While the intelligence initiative is still in the 
collection stage, the tactical team has already produced 
results. The tactical team has made two drug seizures on the 
Miami River. The first seizure involved 165 pounds of cocaine. 
The second seizure involved 119 pounds of cocaine concealed in 
a cook's cabin of a cargo vessel on the Miami River.
    Other positive initiatives should include actions that will 
directly impact Customs' ability in targeting contraband, such 
as enhancing the quality of manifest information, the shipper's 
documentation we use to select high-risk goods. We need to 
explore options that would standardize manifest information and 
require its advance delivery to Customs in electronic form.
    We must also develop and implement Customs new automated 
system for processing goods, the Automated Commercial 
Environment [ACE]. ACE, as the members know, represents one of 
Customs' most critical infrastructure needs. Among its many 
features is an enhanced ability to use information for 
selecting suspect cargo for examination.
    Of course, the best targeting plans can be laid to waste by 
internal conspiracies. That's why we need to implement better 
controls at seaport facilities. In order to achieve this, we 
need to strengthen physical security, tighten controls on the 
movement of goods and limit who has access to sensitive areas.
    Customs can also stand to benefit from acquiring better 
technology. We must devise common systems for sharing 
information about the movement of vessels, passengers and goods 
through our seaports. There should be a coordinated effort by 
the principal Federal agencies involved in national security to 
achieve this goal.
    Finally, I would highlight the need for additional training 
to implement these changes. There is a direct link between 
training and operational success. The fact remains that despite 
the gains technology and improved information offer us, we must 
have technically proficient personnel to contend with our 
spiraling workload and security issues and added manpower to 
implement these changes.
    Mr. Chairman, this is by no means an exhaustive list. It 
forms an effective start in addressing the problems we face at 
our major seaports.
    I hope that with the help of this subcommittee, we can take 
the next important step and confront the critical resource 
challenges we face in strengthening seaport security.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. McNamara follows:]
    [GRAPHIC] [TIFF OMITTED] T5061.024
    
    [GRAPHIC] [TIFF OMITTED] T5061.025
    
    [GRAPHIC] [TIFF OMITTED] T5061.026
    
    [GRAPHIC] [TIFF OMITTED] T5061.027
    
    [GRAPHIC] [TIFF OMITTED] T5061.028
    
    [GRAPHIC] [TIFF OMITTED] T5061.029
    
    [GRAPHIC] [TIFF OMITTED] T5061.030
    
    Mr. Mica. Thank you, Mr. McNamara.
    I'll now recognize Mr. Art Coffey, who is the vice 
president of the International Longshoremen's Association. 
Welcome, sir, and you're recognized.
    Mr. Coffey, if you'll proceed. Thank you.
    Mr. Coffey. Yes, Chairman Mica and Mr. Shaw, thank you very 
much. We're happy to be here today.
    Just as a brief statement, hopefully it'll be part of the 
record. I have a written statement that I have----
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Please proceed.
    Mr. Coffey. The ILA is in full agreement with the 
objectives of the Interagency Commission on Crime and Security 
in U.S. Seaports ``the Commission'' to deter and counter the 
threats of terrorism, smuggling, and other criminal activities 
in the maritime environment in and around the Nation's seaports 
and to provide a reasonable and necessary security needed to 
safeguard passengers and cargo transporting our ports.
    In sum, the ILA has been and remains committed to the 
objectives of the commission and to the concerns expressed by 
member of this committee and to cooperating with government 
agencies to achieve the desired ends. However, it is with 
regard to the means and methods of achieving these objectives 
that we must except, more particularly with respect to the 
treatment of shore-side handlers in these ports.
    The ILA members, no less than working men and women in 
every other sector of our country's commerce and economy, are 
solid, patriotic, hard-working mainstays of their families. The 
members of this union have very special attachments to their 
local communities and to their country, which are second to 
none. They are not a bit less concerned than fathers, mothers, 
brothers, sisters of families of their counterparts in inland 
industries and occupations to the effects of drugs and 
terrorism acts that imperil their and their loved ones' lives 
and well-being. To even suggest that they, as a work force, 
would be any more trustworthy and cooperative is demeaning.
    Thus, the members of the committee may be aware that the 
ILA already has in place a program to assure a drug-and-
alcohol-free workplace for its members, which is 
conscientiously administered and enforced. The ILA strongly 
recommends a committee system to strike a balance between 
preventing criminal activity and eliminating from the ports 
those individuals who have paid their debt to society.
    The rank-and-file longshoreman has every motive to keep 
drugs away from his children and guns from those who can 
threaten his family and quality of life as any other American 
working person.
    The ILA will continue to respond to the calls to cooperate 
with the government agencies at all levels to make our seaports 
not only crime-free but crime integrity free as well. All that 
we ask is that the means and methods to accomplish these 
objectives be reasonable, rational, realistic and evenhanded, 
so that those whom it represents will not labor under 
undeserved onuses or handicap for no better reason than the 
places of their employment happen to be along the country's 
coastlines.
    Respectfully, Art Coffey.
    Mr. Mica. Thank you for your testimony. I thank each of the 
witnesses this morning for being part of this hearing.
    I'll start with some questions. We have a couple of 
problems here. First of all, we've got the problem of making 
certain that those that are working at the ports and 
administering the ports have proper credentials and clean 
records, first of all, to handle the work and administration of 
those ports. Then we have a government responsibility to make 
sure that we've got both proper equipment, resources, personnel 
to deal with any of the problems we have with illegal narcotics 
or commerce coming through those facilities.
    Let me first focus on the question of sort of cleaning up 
the work force. Mr. Coffey just testified that longshoremen are 
committed to having the highest standards and employment 
credentials. Some time ago there was a report that a 
significant portion of some of the dockworkers and those 
actually handling the cargo had criminal background records. 
Maybe we can start here in Fort Lauderdale and tell me what 
your current situation is with background checks on those 
actually dealing with the cargo at both Fort Lauderdale and 
Miami.
    Mr. DeMariano.
    Mr. DeMariano. I think we should draw some attention to the 
fact that not all dockworkers are longshoremen belonging to the 
ILA. Many dockworkers, of course, belong to other labor unions 
or are unaffiliated.
    Mr. Mica. Are you doing checks on all of these folks that 
have access?
    Mr. DeMariano. Yes, sir, anyone that has access to our 
waterfront, regardless if it's union affiliation or non-
affiliation.
    Mr. Mica. What's the record? I mean, you're finding that 
would clean up some of the problems that were identified 
previously?
    Mr. DeMariano. Yes. I think that there is ample evidence, 
and particularly we've heard about it this morning, that there 
is indeed a network and an entrapment so to speak we're 
catching of a number of people who have explicitly difficult or 
felonious backgrounds. Those people are not permitted access to 
the waterfront, nor to cargo proximity. As I said earlier, they 
are not all longshoremen. I speak of the generic member of the 
ILA.
    Mr. Mica. You have in place then adequate checks on these 
people and ways to make certain that they're not accessing 
either the cargo or the port facility?
    Mr. DeMariano. Yes, sir, indeed we do.
    Mr. Mica. What about Miami?
    Mr. Towsley. With respect to the Dante B. Fascell Port of 
Miami-Dade, as I had mentioned in my testimony, we were, I 
believe, the first port in Florida to initiate the requirement 
of the criminal background check. We have that system in place. 
And I do believe it is acting as a deterent from individuals 
that know they wouldn't qualify.
    Mr. Mica. That is both active longshoremen and others who--
--
    Mr. Towsley. Yes, absolutely, including our own employees 
who have access to the waterfront area are required by that 
ordinance to go through the full process which includes a 
criminal background check.
    Mr. Mica. Do you have any percentage of people who have 
problem backgrounds that are working now? Before I thought we 
heard some 30 percent or plus had backgrounds with either 
felonies or some criminal record.
    Mr. Towsley. The way our ordinance works, when it came in 2 
years ago, effectively was that if an individual had been 
working at the port, criminal background check went 5 years. If 
they had a felony conviction within the 5-years, they didn't 
qualify, even if they were working at the Port at the time. New 
employees, it goes back 10 years. So there is a provision under 
our ordinance that allows for an appeal before a committee. And 
the committee will review the extenuating circumstances that 
may be----
    Mr. Mica. You're telling me you have sort of a zero now, 
folks that are working, that you're checking either through 
longshoremen or at the Port that now have some type of problems 
with their background?
    Mr. Towsley. There are individuals who have had problems in 
their background who are----
    Mr. Mica. Who are still there?
    Mr. Towsley [continuing]. Who are still there, that's 
correct.
    Mr. Mica. And you're also----
    Mr. DeMariano. I think that's an accurate statement. While 
we are taking a somewhat harder line on the appeal process, we 
are attempting to make it very, very matter of fact that any 
difficulty with background checks will deny waterfront access.
    Mr. Mica. I'm told that at the Miami-Dade Port, the appeal 
process is not handled in the same manner; there's less of a 
standard, lesser standard for appealing and staying.
    Mr. Towsley. Mr. Chair, two things: One is the statistics 
that were given by Customs earlier were stated that it also 
includes the Miami River. There is no one here who represents 
the Miami River Commission. But I would like to state that when 
you talk about the port of Miami, when you include the river, 
the river does not and we do not control jurisdictional issues 
over working at----
    Mr. Mica. So there are no controls in the Miami River?
    Mr. Shaw. None.
    Mr. Towsley. Not as far as I'm aware for security ID, 
background checks.
    Mr. Mica. That's one of the areas where we're finding more 
and more problems?
    Mr. Towsley. That's correct.
    Mr. Mica. Did you have something you wanted to add briefly?
    Mr. Towsley. I was just going to say that there is a 
difference between the appeals process. We have an independent 
committee that is made up of representatives of law 
enforcement, court adminstration and the union that do hear the 
individuals. To me, I don't know if it's a lesser standard. I 
think it may be viewed as a more fair standard.
    As I understand it--I can't speak for Port Everglades' 
process--but the appeals that they do have only relates to 
procedurally if everything has been done in accordance to 
procedure and they do still have an issue, then the permit is 
denied. There's a philosophical difference in allowing someone 
to have due process with respect to appeal.
    Mr. Mica. Well, one of the recommendations of the State 
review that was released last month recommended minimum 
standards--security standards; is that correct, Mr. McDonough?
    Mr. McDonough. Yes, Mr. Chairman, it is.
    Mr. Mica. Have any of those been adopted statewide?
    Mr. McDonough. We are going to adopt them. We are now going 
through a planning process so that each port can put into 
effect this plan which I will look at to approve or disapprove.
    Mr. Mica. One of the elements appears to be some difference 
in again looking at the employment criteria and standards for 
people who are employed in and around directly at the ports. Is 
this something that should be a consideration? It's a general 
recommendation that we have minimum statewide security 
standards.
    What do you think?
    Mr. McDonough. We have a number of strong views on that. 
The bottom line is yes, we need to have standards. We need to 
have background checks.
    I'd like to take you very briefly through the system.
    Mr. Mica. Do you think the State--now the legislature has 
taken some action. Is this something the legislature should 
handle or should we look at it federally as far as some type of 
legislation?
    Mr. McDonough. I think all of the above. We are only able 
to do background checks as pertains to convictions in this 
State. The way in which we do that, we will run a check up to 
the Florida Department of Law Enforcement, which will then give 
feedback to those that have asked and will tell you whether or 
not there's been a conviction for whatever cause in this State. 
It doesn't extend to the Federal system.
    Now the outcome of that, we have indications that at the 
port of Miami upwards of 17 percent of the current members of 
the longshoremen's union indeed have a felonious conviction on 
their record. Now that, however, just reflects those that have 
such a conviction on State records.
    Mr. Mica. That's longshoremen, 17 percent of longshoremen. 
It doesn't include the other workers in the peripheral area. 
Then we take out the Miami River operations. It doesn't appear 
that there's anything in place there. This report also says 
that there are 14 ports I believe and 2 of them have some 
things in place, most of them have basically nothing or very 
little.
    Mr. McDonough. That's correct. At the time of the study, 
although at this time, there are various plans falling into 
place where others will now do the same thing. A standard we 
wish to go to is that every port will indeed have a background 
check. We also in our study and in our plan have taken into 
account the non-port areas which are historically vulnerable to 
smuggling. The Miami River is one. We need to develop systems 
to control access to those ports, check manifest, limit 
birthing time, etc., so that we can bring down smuggling there.
    Mr. Mica. Mr. McNamara, you said one of the problems is 
dealing with internal conspiracies. Let me first hear your 
opinion about what's going on. Wev'e heard the two port 
directors. We've heard Mr. Coffey. We heard a little bit from 
the drug czar. Tell me what you see from the Customs 
enforcement standpoint both about who's working there, have 
they cleaned up the act, and then where the gaps are and how we 
need to approach this whole problem.
    Mr. McNamara. As my statement indicated, Mr. Chairman, I 
think there are steps that are being taken both at Port 
Everglades and Miami to improve the security. However, the 
access is still there. The control is not effected. We've seen 
a drastic increase in percentage of internal conspiracies 
versus what we consider----
    Mr. Mica. Did you say a drastic increase?
    Mr. McNamara. Internal conspiracies in Miami, for instance.
    Mr. Mica. What about Fort Lauderdale?
    Mr. McNamara. We've actually seen it go down, the number.
    Mr. Mica. And the increase in Miami, is that related to the 
sheer volume? Miami has a much greater volume, doesn't it?
    Mr. McNamara. Yes, it does. The issue with us in Customs is 
that we cannot be there 7 by 24. We cannot be there all the 
time. There is not a presence on the seaport. So if the 
container ships arrive in the middle of the night and off-load, 
people on the dock, whether they are longshoremen or people 
that work on the dock that have access to that container, can 
rip it off.
    Mr. Mica. One of the things Mr. Shaw and I hear when we get 
back is that we've added so many personnel that south Florida 
is going to sink from Customs officials and others down here.
    You're telling me you still we don't have adequate 
personnel to deal with this situation on a need basis?
    Mr. McNamara. Yes, sir. Because of the limited number of 
personnel, we cannot cover it round the clock, we cannot look 
at the shipments as the ships arrive.
    Mr. Mica. Have you submitted or can you submit to the 
subcommittee what manpower you think it would take. The other 
thing too is also enforcement, going after these folks. Are you 
working with the DEA, FBI, whoever and FDLE, the other 
enforcement agencies local and State say for sting operations 
or coordinated efforts with the NIDTA? I mean, if you go in 
and, so to speak, clean house a few times, you certainly will 
get their attention.
    Has that taken place? What's the problem? Don't we have the 
people to even do that?
    Mr. McNamara. The investigation that took place here in 
Port Everglades was a joint--it was led by Customs but with DEA 
and resulted over the last couple years in 45 arrests. Thirty-
five of the people that were arrested were dock and ILA members 
that worked at the docks and had access to the docks. We're 
working with the other agencies.
    We get information from both DEA and the Coast Guard. We 
now have the Florida Department of Law Enforcement working with 
us on the Miami River. They've augmented our staff of agents 
down there so they can participate in what's going on, on the 
Miami River.
    Mr. Mica. Is the Miami appeal process for people working 
there with the shady background, is this also a problem in 
cleaning house from your standpoint? Be candid with us.
    Mr. McNamara. I will, sir.
    Mr. Mica. I know you have to go back and work with these 
people but.
    Mr. McNamara. The issue to Customs is that if we arrest 
people while they're under appeal, they're still working. The 
issue is if you're doing the check, do they have a right to 
come back to work or are you going to let them to continue to 
have access to the secured areas?
    Our concern is not that they are continuing to work 
somewhere on the port, it is that they're having access to the 
containers on the ports where we want to keep them out of. We 
want to control where we have to do our work. If they are going 
to be allowed back in there all hours of the night, even after 
we know that they're convicted felons or they have records, 
then that defeats the whole purpose of doing the check.
    Mr. Mica. There are 35 people you said that were arrested. 
Are some of these folks still working?
    Mr. McNamara. I don't believe so. No.
    Mr. Mica. They're all out of service?
    Mr. McNamara. In jail.
    Mr. Mica. To deal with this problem, Congress also 
appropriated, Mr. Shaw helped, on this issue of getting you not 
only the personnel but also the equipment, surveillance 
equipment, detection equipment. I thought we had on order ion 
scanners, the whole range of equipment to deal with the cargo 
and passengers, the massive amount that you have to pass 
through the ports.
    What's the status of that?
    Mr. McNamara. In 1999 Congress appropriated approximately 
$34 million for what we considered non-intrusive inspection 
technology. There is a 5-year plan. That was based off a 5-year 
plan that we submitted. A number of pieces of this equipment 
were on the drawing table and they have been tested. Some of 
them have been tested right here down in Miami. As a result of 
that testing, either they went back for additional enhancement 
or improvement or the additional x rays were ordered. That 
money was for the whole southern tier, for the southwest border 
across the Gulf here to Florida and Puerto Rico. So we've spent 
over half of that money so far. And we are purchasing 
additional equipment. Miami is scheduled to get a $7 million 
piece of equipment in January.
    What our concern is with this equipment, a lot of it is 
new. It's innovative. We want to make sure it works. We don't 
want to go out and spend the money and put it out there if it 
doesn't meet our needs.
    What happens with it is some of it is low density where 
when you're doing a container, what happens, you don't see the 
whole container or if it contains certain type of merchandise. 
And the conspirators know this that after awhile we use and 
find it. The next time they bring in a shipment what they'll do 
is they'll hide it behind something or secrete it in something 
that we cannot x ray easily. What x rays basically do is either 
show us something that is in the container or give us an 
anomaly that causes us to do a full examination.
    They are on order. There is a schedule for deployment over 
the next couple of years that started in 1999 when we got the 
money. I would say that probably more than half of that money 
has been spent to date.
    Mr. Mica. Mr. Shaw and I are most interested in some of 
that equipment coming into south Florida and particular other 
ports in Florida. One of the reasons we appropriated it is we 
wanted you to have the technical equipment to detect this 
stuff, not only stuff coming. We understand that it will also 
detect stolen cars and other goods, even money going out.
    If you could supply the subcommittee too with--and maybe 
the Commissioner could do that--with a list of what's 
obligated.
    You don't know what's obligated specifically?
    Mr. McNamara. I don't have that with me today.
    Mr. Mica. If you could do that for the record, I'd like 
that to be part of the record. We want to keep an eye on that, 
because it's nice for us to appropriate that, but not to have 
the equipment delivered is something else. We need to look at 
what hasn't been delivered. If there's any problems and also if 
we have any research technical problems that need to be 
addressed, we want to see that gets attention.
    Has Commissioner Kelly met with officials or anyone from 
Department of Justice or DEA folks in sort of a summit on the 
Graham Commission report, now the State report, that you know 
of to address some of the recommendations?
    Mr. McNamara. I know that he has had briefings with the 
Attorney General and, you know, the Department of Justice, as 
well as other areas of government. And I know--I believe he 
testified on October 4th on the Hill. But I do not know what 
further recommendations came out of that.
    Mr. Mica. Mr. McDonough, I like to have these hearings, but 
I like to see something productive come out of them. I would 
think that maybe you could help us take a lead and see if we 
couldn't get ONDCP, our DEA folks, Customs, everybody who is 
involved in this, maybe the south Florida HIDTA people--if 
these recommendations sit on a shelf, it's sort of useless and 
a shame. Maybe we can from the Federal level--and I know there 
are some specific recommendations in here, increasing a 
National Guard recommendations at the seaport. But if we could 
get all of the folks together maybe sometime in November or 
December and see what we can pick off.
    There are some specific recommendations, Clay, for Congress 
in here and the congressional delegation. Again, it's nice to 
have these hearings, but if nothing comes of them, we're all 
sort of spinning our wheels.
    I'd like to see if you can't help convene that, Jim.
    Mr. McDonough. Sir, if I may.
    Mr. Mica. Yes. Would you?
    Mr. McDonough. I'd be happy to and I will. We have put some 
plans in motion. I can give you a very brief rendition.
    Mr. Mica. Go right ahead.
    Mr. McDonough. I'm meeting with General McCaffrey in 
Orlando on November 29th, I think it is. I've been in 
correspondence with his office and with him as well in the 
intervening months since, first of all the meeting between 
Governor Bush, he and I, in the White House and subsequently 
the publication of our plan. I cannot speak for him. I don't 
know how it will work its way out. But I actually am optimistic 
that he will review the studies, both this study and the Graham 
Commission study, and then will, if he has not already, be 
meeting with the chief of Customs, with the administration of 
DEA, the leadership of the FBI.
    What I'm anticipating is a favorable response that will put 
in place, in fact, an information and intelligence effort, as 
well as a number of systems to include an enhancement of the 
NII, the Non-Intrusive Inspection package, which will include 
as part of it not just the equipment but the training of the 
handlers, the maintenance system to keep them in operation to 
include the repair parts, and perhaps an adjustment to the 
fielding plan.
    But I will take as further guidance your direction to me, 
sir, and encourage them. Of course, I am a State agency and I 
have to----
    Mr. Mica. Right. We'll be glad too work with you in our 
subcommittee. We'll be glad to call the Federal folks together, 
but I think it would be good to have something concrete come 
from these recommendations.
    Finally, Mr. McNamara, some of the equipment, etc., that 
has been installed, I have reports that we still have problems 
with the subversion of the technical equipment. Can you 
describe what's going on, surveillance equipment and so forth?
    Mr. McNamara. A couple of times we've had incidents where 
the cameras, for instance, that we've installed have been 
knocked down or blocked. So that if we have a camera on a pole 
to watch the area, the stacking of the containers is put right 
in front of cameras so the camera is useless. You cannot see 
anything.
    We've had accidents where cameras were knocked down or 
where our x-ray system was put out of commission for a short 
period of time because of another accident. There are things 
like that that have happened on the port. The equipment is 
sometimes out there in the elements. If it's outside the 
building where we normally do the cargo examination, it's 
subject to the mishaps that happen on the seaport.
    Mr. Mica. Purposeful mishaps sometimes.
    Mr. Shaw.
    Mr. Shaw. Mr. McNamara, who mans these scanners? Who is 
looking at the TV screen to see if these containers are piled 
up in such a way that it obscures the visibility of another 
container?
    Mr. McNamara. Customs inspectors.
    Mr. Shaw. If vision is obscured, wouldn't that be an 
automatic warning to the inspector that something is going on? 
I mean, this problem has been there ever since I've been 
working with it. These guys will pile the stuff up. You can't 
see them, and somebody makes a grab.
    Mr. McNamara. Yes, sir. As a matter of fact, one time they 
were watching and they saw this car go in behind it. They 
couldn't see what was going on behind the container. So they 
responded. They went out there and they checked it. It happened 
to be an elderly couple that got on the port by mistake where 
they weren't supposed to be. They were looking for a cruise 
ship. So they guided them back out.
    That's the kind of thing that would happen. We monitor the 
screen. And if they see something or we think that there's 
something maybe going on, we respond.
    Mr. Shaw. Are we still seeing the situation where the cargo 
will come in and they could be open. They're under seal. 
They're opened and, of course, there's a new seal inside with 
the tools and everything together with the contraband. The 
contraband is grabbed and the thing is resealed.
    Are we still seeing that going on?
    Mr. McNamara. To the extent that it used to happen, I don't 
think it's happening as much, but yes, there is tampering with 
the containers. The removal of the whole container door, taking 
the contraband, putting the container door back together.
    Mr. Shaw. That takes awhile, doesn't it?
    Mr. McNamara. They're very quick at it. It's just pins on 
the outside of the door that you can pop out and pull out. They 
do have duplicate seals, multiple seals that go on there.
    Mr. Shaw. Is it a huge problem with the pins being pulled 
out and doors being pulled off? If it is, we can certainly 
require that some alteration of these containers be made so 
that wouldn't be done so readily without some destruction to 
the pin anyway.
    Mr. McNamara. I wouldn't say that it's a major problem. 
It's just one of the ways that they're able to gain access and 
make it look like nobody was there. There are various things 
that they do with the container that we have to learn--catch 
them and then learn that this is something to look out for, 
whether it's the seal, whether it's the pins, whether it's the 
locking mechanism, different things like that that we have to 
become familiar with. Then we train our inspectors constantly, 
updating that information so that they know what to look for 
when they're out looking at the containers before they even 
open it.
    Mr. Shaw. I believe it was you that testified with regard 
to back in 1998 where the port of Miami was No. 1 and Port 
Everglades was No. 2 with regard to internal conspiracies.
    Do you have an update up on that?
    Mr. McNamara. In 1999, we were one and two again. In 2000, 
we were three and four.
    Mr. Shaw. But three and four, I assume Miami was three and 
Port Everglades was four; is that correct?
    Mr. McNamara. Yes.
    Mr. Shaw. That tells me something else, because you also 
said that it's getting worse in Miami.
    Mr. McNamara. See what happens is that this is based on the 
number of narcotics that was seized. What happens is that when 
we do our job real well, they ship to some other place. In this 
particular case, the No. 1 and No. 2 was Puerto Rico and Tampa. 
That's because of large loads that were found in those 
locations.
    Mr. Shaw. When Customs first brought the problem to me with 
regard to the criminal background of so many of the dockworkers 
and I brought it to the attention of Miami-Dade's County 
Commission, they did move very quickly. Mr. Towsley is 
absolutely right that they were the first, I think, in the 
country. Then we brought it up to Port Everglades. The County 
Commission up here passed it. It took them a little while to do 
it, but they got it done.
    Of course, you're talking about this whole thing, you don't 
really solve the problem, you just probably move it. 
Recognizing that, I went up and told the folks up at the port 
of Palm Beach to watch out. It was coming their way. I imagine 
that's probably happened.
    What is the port of Palm Beach doing? I don't know if 
you're prepared to even answer that question.
    Mr. McNamara. In terms of some seizures, we've had some up 
there. We recently had--Fort Pierce actually, we had a small 
boat. We haven't seen a lot of small boats bringing it in. We 
found a 2,000-pound load a couple of months ago coming into 
Fort Pierce.
    It is our concern that the movement up, just like some of 
the Haitian vessels moved up to Port Everglades, we're 
concerned what's going to move up to West Palm. The cruise ship 
is another issue. And West Palm hasn't gotten any staff 
increases over the last couple of years. So the chairman asked 
me about staffing. That's one of the concerns we have. If we do 
a real job and staff up Miami, it pushes it to the next port 
that could push it to next port. Then you go to a port like 
Fort Pierce, basically I have five or six inspectors up there, 
which just cannot cover it.
    Mr. Shaw. Part of the problem I know is a budgetary problem 
and one of the problems that is connected with that is the 
tariff goes into the general fund rather than staying with the 
Customs. We've had that problem with trying to get a larger 
Customs presence at the Fort Lauderdale/Hollywood International 
Airport, as well as other things. I think perhaps next year, we 
should start to look at that and work with that somewhat.
    Now, Mr. Towsley has testified that they're getting hit 
with also the Miami River. If we were to pull the Miami River 
statistics out of the port of Miami, how would that affect 
their standing?
    Mr. McNamara. Miami would have dropped down drastically, 
OK, the port of Miami as opposed to--We include the Miami River 
as part of Miami Seaport. It's covered by the same people. It's 
the same Port Authority. In the fiscal year 2000, cocaine, for 
example, 8,211 pounds, of which 7,115 pounds was on the River.
    Mr. Shaw. So the port of Miami, I guess, would really drop 
off?
    Mr. McNamara. Yeah.
    Mr. Shaw. That's an important statistic because I want to 
know what's working. Obviously, we don't have the surveillance 
on the Miami River that we have----
    Do you have any suggestions as to how we could attack that 
problem on the River?
    Mr. McNamara. It's going to have to be multi-agency with 
the private sector, because every time we're on the River and 
we're doing something, you have the Miami Commission that is 
concerned about the business on the River and try and 
facilitate the business and the businesses that are on there 
and the shipping companies with our problem of enforcement. The 
type of trade and the location from where that trade comes from 
lends itself to smuggling, conspiracy. And it's a difficult 
problem, a very difficult problem to try to address.
    Obviously, intelligence, obviously people to gather that 
intelligence. Our Customs agents working on the River, they're 
assigned a group to work the River to try to pinpoint where 
some of this may be happening, to help us out with the 
targeting of the vessels, where they're hiding these vessels.
    Again, they go down to Haiti, for instance. They sit down 
there for a long period of time. What ends up happening is they 
secrete it down in the bowels of the vessel down below the sea 
level, under cement floors. Trying to get at it is what the 
problem is.
    Mr. Shaw. A ship coming into the port--coming into the 
Miami River, they're supposed to check in at some point with 
Customs.
    Are they doing that? Are they not doing that? What happens 
when a ship comes in and reports that it's going up the Miami 
River, what do you do and how long does it take you to do it?
    Mr. McNamara. We make a determination on whether we want to 
examine; how we want to examine; what we want to put there; do 
we have intelligence on that ship that would want us to put 
dogs on it; run a dog across it.
    What happens is that, again, they know our staffing. They 
know how many people we have there. Not too long ago, a couple 
months ago my person that runs the oversight of the Miami River 
for me in terms of inspection--contraband inspection told me 
that about 10 ships came in all at the same time. Once you have 
that many ships coming in to come up the River, it's very hard 
to do them all.
    Mr. Shaw. At what point do they radio you, after they dock 
or when they're still out at sea?
    Mr. McNamara. They normally tell us that they arrived. The 
agent normally comes in and says I have a ship arriving. That 
could be right before it comes in or after it docks they let us 
know, they'll advise us that the ship is there for clearance.
    Mr. Shaw. So they could have already cleaned it out before 
they even call you?
    Mr. McNamara. Could.
    Mr. Shaw. Aren't you given some type of intelligence as to 
what's coming in, either by the Coast Guard or other means? 
Maybe that's the problem. We ought to make sure so that they 
don't have an hour to unload before you know they're there.
    Mr. McNamara. Sir, the intelligence usually is on something 
on a given ship or something that they have information.
    Mr. Shaw. Not on the arrival?
    Mr. McNamara. No. That happens. If the ship is coming in 
and the Coast Guard knows that this particular ship might be 
loaded with something, they'll give us that information through 
our agents.
    Mr. Shaw. Is the Coast Guard aware of the ships that are 
coming in? Do they have some way of monitoring what's coming in 
and particularly what's headed up the Miami River? It seems 
that's where the big problem is. Obviously, statistically 
that's exactly where the problem is.
    Mr. McNamara. Sir, I don't know if they know of every ship 
coming in.
    Mr. Shaw. The statistics we have on Port Everglades, does 
that include the Dania Cutoff Canal or other ports of entry?
    Mr. McNamara. Yes, sir.
    Mr. Shaw. What problems do we have at the other ports of 
entry in Broward County?
    Mr. McNamara. The only one I'm familiar with, we have some 
airport, some internal carriers at the airport, as well as the 
cruise ships, as well as the cargo. I'm not aware of any 
problem----
    Mr. Shaw. The port at the La Dania Canal, that's not a 
problem? You don't see any problems?
    Mr. McNamara. I haven't gotten anything that tells me that 
is a problem.
    Mr. Shaw. Could I make a suggestion from a statistical 
standpoint that you might want to put a subcategory for the 
port of Miami so that they can be rewarded rather than 
embarrassed by these statistics. Because it does sound like 
they're doing a pretty good job down there. And we continue to 
work to get the latest technology installed. I think I've seen 
all of it at one time or another. It's really quite amazing.
    I'd like to just turn our attention just a moment to--well, 
before I do that, let me get back to Paul DeMariano.
    Where are we as far as increasing the security, the ingress 
and egress from the outside along the roadways? I know I've 
brought home a lot of money and appropriated for some 
improvements, but I really haven't seen it coming out of the 
ground.
    Mr. DeMariano. We've commissioned that work, Congressman 
Shaw, in a firm having been selected, Bermello-Ajamil 
Associates, who are specifically charged with the roadway 
control points and physical constraints within our road system. 
As you correctly pointed out, like Boston, which is a city full 
of cow pastures converted into streets, this port has such a 
history.
    We do have a number of shortcuts, as you know, to get from 
the airport, for example, to the 17th Street Causeway. This 
will all be the subject of pretty intense, in fact, five 
physical checkpoints which are going to be done and confirmed 
in terms of design for construction within 9 months. That work 
is underway. I would say the first 20 percent of that work has 
been completed.
    Mr. Shaw. I would guess that this is being done with 
cooperation of Customs, as well as the Sheriff's Office?
    Mr. DeMariano. Yes, sir, it is, that is for certain. And 
indeed, the Sheriff's Office is taking a more active role with 
us on police activity per se within the seaport. We will very 
shortly recommend a larger jurisdiction for the Sheriff and BSO 
here at the Port with the sense in mind, the philosophy that 
professional police departments should be providing more hands-
on professional police activity, rather than us attempting to 
grow expertise in that area. We will commission that contract 
through the Broward Sheriff's Office.
    Mr. Shaw. Very good. I'd like to go back, if I could, just 
a moment to Puerto Rico. Obviously, they're part of our country 
and once someone breaches security there, they're in.
    What is happening over there, Mr. McNamara?
    Mr. McNamara. I am not familiar with Puerto Rico in the 
last couple of years. I used to have oversight back in 1995 
over Puerto Rico. I could find out and submit that to the 
record, if you would like.
    Basically, I can tell you that dropping the air drops, what 
was happening back in 1995 was the dropping of narcotics off 
the shore of Puerto Rico or the Dominican Republic. Then they 
were then transiting here to the United States from Puerto 
Rico.
    What's exactly happening right now I am not familiar with, 
I'm not responsible for.
    Mr. Shaw. Does either the port of Miami or Port Everglades 
have heavy volume of shipping coming from Puerto Rico?
    Mr. DeMariano. We have a limited volume as compared to 
Jacksonville, which is a very, very heavy gateway to Puerto 
Rico. We do have a degree of Puerto Rican cargo and a dedicated 
service which calls here at our mid-port area. I have no reason 
to think that is receiving any more or less scrutiny than our 
other port areas.
    Mr. Towsley. We have a similar situation in Miami. We do 
see most of the Puerto Rican cargo coming in through 
Jacksonville.
    Mr. Shaw. Mr. Coffey, I want to get a little bit of a 
clarification of your testimony. As a longshoreman, do they 
support background checks as they're presently being done or do 
you all still have objections to that?
    Mr. Coffey. No, we don't have any objections to that.
    Mr. Shaw. I wanted to clarify that, because in listening to 
your testimony, that was a little bit of a gray area.
    Mr. Coffey. What the longshoremen--really it's happened, I 
suppose, over the years of just getting painted with a broad 
brush and Miami as the Miami River and so on and so forth. In 
my 30 years in Miami and Fort Lauderdale on the docks, I've 
seen an awful lot in the growing ports in both ports. Some of 
the other ports are mature ports and they're diminishing in 
size. The ILA itself nationally is 14,000 strong. It used to be 
over 100,000 at one time. There's quite a bit of a difference. 
I'm so glad listening to Mr. McNamara, there is a no ILA Palm 
Beach, Fort Pierce or the Miami River so they can paint that 
brush again.
    One of the things we have discussed quite a bit--We're part 
of committees from time to time on the port with Customs and 
with the local police and the Port Director's office--is that 
because of the Miami River something would have to be done. 
There seems to be a project going on to dredge this river to 
make it deeper so that there will be more traffic there.
    The only thing that we really realize is that the things 
that probably are--and again, it's a guess on my part. I don't 
have any information other than what I can suspect and take as 
a prudent man to look at--is that what a man takes off in his 
pocket off the pier if there's any type of drugs in that is 
really not corrupting our Nation. What goes off in containers 
is probably the thing that's doing it because there's that much 
more that can be done.
    A few years back the shipping industry had changed the way 
they ship cargo. Where you had all sorts of different bills of 
lading in order to get a shipper's cost, now they have one. So 
nobody really knows who touched the cargo. And they have what 
they call inter-modalism where there is a price from say Taiwan 
to Hialeah. That's the one cost. And those containers come into 
the port and then they leave the port and they're off the port.
    Prior to that time, we used to strip and stuff the 
containers on the port ourselves. I know that at that time we 
had Customs' agents in all the sheds that we had on Dodge 
Island and in Port Everglades. And I guess through attrition, 
manpower losses, they had to centralize. And those people are 
not in those port areas any longer. Basically, what we've 
looked at is watched containerized cargo make it more efficient 
for the shipping industry, but it probably has given an awful 
lot of difficulty to this country and to Customs as far as 
moving these things.
    As far as the Miami River is concerned, my only suggestion, 
if anything, is that the containerized cargo just shouldn't be 
allowed on the River. I don't see Delta Airlines going to North 
Perry Airport. I don't see American Airlines going to these 
other airports. They have them centralized. I'm sure that would 
be more of a restrictive job if they were on all of these 
little places. If American Airlines took that little plane that 
they have, the Eagle, and said we're going to do the Eagle 
service out of North Perry, that would be a problem, I think.
    My only suggestion to this whole matter is that if it's in 
containers and we believe it's in containers, and we have 
technology for it and we can do something about it, we put the 
containers in one spot where, according to the stats, it's less 
vulnerable in the port of Miami than the Miami River. I don't 
know why anybody would want to dredge the River and continue to 
increase the tonnage. It does a million-and-a-half tons a year 
right now.
    Mr. Shaw. The dredging of the river is an environmental 
project also. There's some stuff down there that's pretty bad.
    Mr. McNamara, what do you think of that suggestion?
    Mr. McNamara. In terms of shutting down the Miami River?
    Mr. Shaw. No, no, no. I'm talking about requiring that the 
container ships all go into a designated port.
    Mr. McNamara. The containers, to this point, are not our 
problem. It's the boats themselves.
    Mr. Shaw. You were saying that they were actually in the 
infrastructure?
    Mr. McNamara. In the infrastructure of the boats. A lot of 
these boats come in and park for weeks. I don't know that they 
would be allowed to do that at Dodge Island or----
    Mr. Shaw. They'd have to pay a lot more.
    Mr. McNamara. There's commerce along the River, shipyards 
or container yards that operate along the River that 
accommodate these particular boats and their cargo.
    Mr. Shaw. Mr. Towsley, do you have any suggestion on that?
    Mr. Towsley. I agree with Mr. McNamara's comment that part 
of the problem with the River is the types of vessels. However, 
the containers, we certainly would welcome the additional 
traffic, but I'm not so sure that the type of vessel we could 
not--don't have the space or the luxury to be able to have the 
vessels sit there for weeks for loading and unloading, the 
system that they use at the River. It is a niche market that we 
don't adequately service.
    Mr. Shaw. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. McNamara, can you tell me what kind of traffic pattern 
we're seeing, where the drugs coming from, as far as country of 
origin or transit coming into south Florida, what are you 
seeing lately?
    Mr. McNamara. Basically, the Colombian cocaine and heroin 
are coming through the Caribbean corridor. The ones that come 
to south Florida through Haiti would be one of the main points 
of transshipments. Marijuana is coming from Jamaica.
    Mr. Mica. Directly?
    Mr. McNamara. Directly.
    Mr. Mica. Haiti is still the big transshipment point?
    Mr. McNamara. Yes.
    Mr. Mica. Through the Dominican Republic and over to Puerto 
Rico and then up?
    Mr. McNamara. The other areas, obviously any country, 
whether it be Venezuela, Ecuador that the ships call on, 
received the Colombian cocaine and boarded on those vessels 
that's headed for south Florida. We see it coming out of those 
countries, also.
    Mr. Mica. Venezuela, you're seeing an increase?
    Mr. McNamara. I don't know if it's an increase. I'm just 
saying that there have been incidences where ships that called 
on these other ports within these countries. Where it got 
loaded on, where the container got loaded on, when we look into 
that after we investigate it, we try to find out whether that 
was something that the cocaine got loaded on in Ecuador or 
Venezuela or whether it was transhipped from Colombia--got 
loaded in Colombia and the ship just stopped there.
    Mr. Mica. One of the recommendations of the report was that 
Customs change the manner in which it calculates staffing 
because Puerto Rico is considered, I guess, a domestic shipment 
point.
    Did you want to respond to that? Is that something that we 
need to look at because, again, it's not counted in the 
equation for staffing.
    Mr. McNamara. In terms of working out how many people you 
should get and Commissioner Kelly has contracted out and 
developed what we call a resource allocation model that is 
currently tied up in OMB and Treasury. But that model is 
supposed to take into account various types of work load to 
determine where resources, if we get any resources, are to be 
distributed to.
    So the question comes down to what are we going to be doing 
with the domestic cargo, because it is domestic at that point, 
from Puerto Rico? If there was a reason to believe that it 
should be reexamined because there might be drugs and they were 
put on subsequent to examination in Puerto Rico, we will do 
that. The issue, of course, in the trade is that it's already 
been examined in Puerto Rico. It's domestic. You shouldn't be 
examining it.
    Our counsel feels that it is still coming from 
international waters and therefore, it might be subject to some 
sort of narcotics onboard or put onboard and therefore, we do 
have a right to examine that particular cargo.
    So the question comes down to what is it that we are going 
to be wanting to do with this cargo. Quite frankly, Mr. 
Chairman, we have so much work right now that, again, it's a 
resource issue as to how much we can look at. For instance, 
right now in Miami, we're looking at about 25 percent of empty 
containers, mainly because of the fact that we know that empty 
containers are used as a source of concealing narcotics and 
there's no cargo in that container. It's just a container.
    Mr. Mica. I also want to ask our staff if they can come and 
look at the equipment. I don't know if I'll get a chance to do 
that. I want to see what's in place, the big order that we put 
in, Mr. Shaw. We need to do a little check and see what is in 
place and if there are problems with this equipment, we've got 
to get that on line.
    In 1993/94 up to 1995, the Coast Guard's budgets were 
pretty dramatically slashed and it was a big impact 
particularly on Florida. Mr. Shaw and I have worked to try to 
get the Coast Guard back up to speed, so to speak, and back in 
this activity since they're so essentially, not only for the 
safety of the waterways, but also sort of our first line of 
defense.
    Mr. McNamara, what's your opinion of the resources? You 
have to do this non-prejudicially. As far as Customs' 
resources, tell me if your observations of Coast Guard getting 
back up to snuff is adequate.
    Mr. McNamara. I truly am not familiar with the issue.
    Mr. Mica. The two port directors?
    Mr. DeMariano. I will offer this comment, Congressman. 
We're generally aware that under the Federal assessment of 
seaport problem, which was alluded to by Jim McDonough, there 
will be a heightened responsibility offered to the U.S. Coast 
Guard. It's my sense in talking to the captain of the port, who 
I'm sure will speak for himself, there has not been a 
corresponding assist to him in capability, manning or funding. 
And obviously, we have all in our careers known that the Coast 
Guard has had a high degree of national security--port security 
responsibilities. Here we're talking I take it more about 
contraband----
    Mr. Mica. Right.
    Mr. DeMariano [continuing]. Pilferage, drug smuggling. I 
think clearly that represents a new area and one that's going 
to require great resources.
    Mr. Mica. Mr. Towsley.
    Mr. Towsley. As we increase our security at the ports and 
as we develop and improve our security master plans, the role 
for Coast Guard, in terms of review of those plans and working 
with us, is going to increase their workloads. I, likewise, 
don't believe that their manpower and their budget have 
correspondingly increased. I certainly don't have firsthand 
knowledge to suggest that.
    Mr. Mica. What is their presence here that you feel is 
still inadequate--resources inadequate to deal with the 
problem?
    Mr. Towsley. I really can't address that specifically. I 
know certainly that the issues that we have had at the port 
since I've been there in terms of emergencies and so on, the 
Coast Guard has always been there and provided a tremendous 
level of service to us.
    Mr. Mica. Clay, one of the things that we observed when we 
went down to Puerto Rico, the Coast Guard and some of the 
others, the bump up that they got--we got a significant 
supplemental was in place and then deflated afterward. So they 
started on sort of ramping up. It's all sort of fallen apart, 
again, which is a problem. Puerto Rico, in particular, has a 
lot of it coming in through--transiting through there and ends 
up here.
    Mr. Shaw. If I can take a crack at answering your question, 
as a non-sworn witness, I can say that in the 20 years that 
I've been in Congress, I do not think that we've adequately 
funded the Coast Guard in any one of those years. It's not 
under the Department of Defense. It's under the Department of 
Transportation. They do not get the attention that the others 
armed services get.
    I think that should be something that the next Congress 
should really take a close look at, because of the dual mission 
of the Coast Guard, being one of defense in time of need and 
being one of law enforcement on a full-time basis that makes it 
a wonderful service that we need really to look at. In 
increasing the funding for the Coast Guard, we could certainly 
recognize their reserve military capabilities.
    Mr. Mica. Thank you. One last question to Mr. McDonough. We 
seemed to identify today one of the gaps, which is the Miami 
River.
    Is there any strategy from your standpoint to deal with the 
Miami River on a specific basis, given the fact that you have 
to work with all the local, State and Federal agencies?
    Mr. McDonough. Yes, sir, there is. Many of them are 
mentioned. So I'll just tick off the generic list of things 
that need to be done.
    First of all, we need a better intelligence system so we 
can anticipate what is coming in.
    Mr. Mica. Let me interrupt you, because you said the 
legislature is giving $28 million additional dollars. Is that 
at the port area?
    Mr. McDonough. What I said was the seaport study called for 
physical structures that would total $28 million.
    Mr. Mica. Is that into the Miami River?
    Mr. McDonough. No, sir. It's for the 14 ports. Separately, 
however, we are planning to work on the Miami River.
    Mr. Mica. But there's not anything specific as far as 
finances--finance program to deal with that?
    Mr. McDonough. There is, in fact. What we have done is we 
reinforced the Federal agents at the Miami River with Florida 
Department of Law Enforcement agents and local law enforcement, 
but the State has paid for the more manpower from the Florida 
Department of Law Enforcement.
    Mr. Mica. Maybe to abbreviate this, could you provide the 
subcommittee with a one-pager and give us an outline of what 
the State is doing locally and if there are any Federal 
elements that need to be included, something that needs to be a 
component, whatever it may be----
    Mr. McDonough. Yes, sir.
    Mr. Mica [continuing]. That we can provide so that we sort 
of put the pieces to the puzzle together.
    Mr. McDonough. I shall.
    Mr. Mica. I think that will be helpful in dealing with that 
area and also timely as we start this next cycle.
    One of the other issues I think that was raised in here was 
money laundering. I'm not sure if anyone wants to talk about 
that.
    Mr. McNamara. Illicit money laundering. Maybe you know 
something about this, Mr. McDonough.
    Mr. McDonough. Sir, I'll address that.
    Mr. Mica. If you would, go ahead.
    Mr. McDonough. I have been directed by the Governor of this 
State and by the legislature of this State to incorporate a 
number of steps to intercept the money on the way out. We, of 
course, worked through a variety of law enforcement agencies, 
to begin with the Federal assistance, but also State and local.
    Recently, the legislature has recommended 36 specific steps 
to do our best to intercept the money. We're doing that. For 
example, this morning I was met at the airport by a local law 
enforcement agent and she, in fact, works the money laundering. 
I asked her how they were doing here in Fort Lauderdale. She 
reported that they recently picked up $8 million. That's a 
pretty good take in a short period of time.
    The Miami HIDTA works with it extensively. They have an 
office called Impact. The last time I checked, they had 17 
Florida agencies involved with them, and they take in a 
significant amount.
    We have changed reporting procedures from banks within our 
State so that when you hit specific limits, the transaction is 
reported, etc. We do not have a good base for how much money is 
laundered either electronically or physically through State. We 
have to guess at that. My only guess it's in the order of 
billions. I would put it in the low single digit billions, but 
beyond that, I'm not really sure.
    I do believe that we're only taking, at the moment, a minor 
percentage of the money. By minor percentage I would say less 
than 5 percent. I don't think that's enough to impact.
    I do believe on the interdiction front, on the seizure of 
the drugs themselves, talking specifically of cocaine, I think 
we may be pushing up now beyond 15 percent maybe 20 percent. 
That's a significant take.
    My own measure, if we begin to hit seizures of drugs at 30 
percent or so, it drives the traffickers elsewhere or deters 
them completely. If we begin to hit the money at the rate of 10 
percent or so, I think it will really break it back. So far we 
are not there.
    Mr. Mica. Mr. McNamara.
    Mr. McNamara. Mr. Chairman, with regard to the money going 
out as a result of the proceeds of drug interdiction, first of 
all, we have inspectors that as part of the our outbound 
program are looking to uncover, find money. We have done that. 
I'm seeing, if I have the exact number of how much money, total 
outbound currency reporting south Florida CMC, this is just for 
south Florida, the entire CMC, in 1998 was $9 million. In 1999 
it was $9,184,000 and in 2000 year to date in June was $9.6. 
We're getting some of the money going out, by no means all of 
it.
    On the same token, our agents are investigating and 
participating in these HIDTA groups, as Mr. McDonough that 
talked about, that are looking at doing the intelligence and 
analysis of the organizations that are laundering money. So 
it's a two-prong approach, trying to catch what's going out in 
cash and people that are taking it out. Sometimes they're 
taking it out in their luggage. Sometimes it's in shipments. 
And also trying to unearth the smuggling organizations and how 
they're transferring that money.
    Mr. Shaw. Are there reporting requirements on electronic 
transfers?
    Mr. McDonough. There are.
    Mr. McNAMARA. Same thing, $10,000.
    Mr. Mica. Mr. Towsley.
    Mr. Towsley. Mr. Chairman, we've heard testimony this 
morning I think from all the agencies in terms of resources and 
needs and improvements that we need. I have a question. Is 
there some way that some of the dollars that are being 
laundered that are being captured at the ports could be 
dedicated to come back to the seaports and our enforcement 
agencies?
    Mr. Shaw. Good try.
    Mr. Mica. We're trying to work on a percentage basis, too.
    Mr. Shaw. No, no, no.
    Mr. Mica. It hasn't worked out too well.
    Mr. Shaw. There are laws that do a certain amount of that. 
I don't know what law. Of course, it would go back to local law 
enforcement for the money it seized. You are supposed to get a 
certain portion of it.
    Mr. Mica. But not the ports.
    Mr. McNamara. But the seaports could, if they provided 
information that lent itself to the seizure of drug smuggling 
or drug information or money, that they could share in some of 
that.
    Mr. Shaw. Mr. Towsley, make a deal with the gentleman to 
your left.
    Mr. McNamara. Can I clarify?
    Mr. Mica. Yes.
    Mr. McNamara. Mr. Shaw, you asked me about La Dania. There 
was one seizure. It was a Haitian vessel that went up there. I 
guess it got kicked off the river. A wooden vessel that had 300 
pounds of coke during 2000.
    Mr. Mica. Any further questions, Mr. Shaw?
    Mr. Shaw. No. I just want to thank all these witnesses for 
their time and being with us, their candidness and bringing us 
up to date on what's going on.
    One real quick question. Does Tampa do any background 
checks and things of this nature? Why did they jump up above 
the other ports?
    Mr. McNamara. I don't know, but I could find out for you.
    Mr. Shaw. Thank you, Mr. Chairman, and thank you for coming 
down here, Mr. Chairman. I very much appreciate it.
    Mr. Mica. I expected us to be well into the congressional 
recess at this point. I thank you for being with us today. I've 
got to scoot back to Washington. I thank each of the witnesses 
for their help and the State of Florida. I didn't mention, the 
Governor, Jeb Bush, I've never seen anyone more committed to an 
issue than our Governor. I'd thank you, Mr. McDonough, to 
convey our appreciation. He hasn't let up on this for a second.
    I'd like to thank the two south Florida port directors for 
their cooperation; Customs, for your assistance; and also, the 
International Longshoremen representative. I know that just by 
working with us and also ensuring that we have the very highest 
standards of everybody's boat here, particularly at our ports, 
and we appreciate your cooperation.
    There being no further business to come before the 
subcommittee this afternoon, this hearing is adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]

                                   - 
</pre></body></html>
